RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20-994
VOLKSWAGEN GROUP OF AMERICA, INC., et al.,
v.

Petitioners,

THE ENVIRONMENTAL PROTECTION COMMISSION
OF HILLSBOROUGH COUNTY, FLORIDA,
AND SALT LAKE COUNTY, UTAH,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Carter G. Phillips, certify that
the Brief Amici Curiae of International Organization of Motor Vehicle
Manufacturers, European Automobile Manufacturers’ Association, and European
Association of Automotive Suppliers in Support of Petitioners in the foregoing case
contains 5,818 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 16, 2021.
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

